OIG Investigative Reports, Investigation into Pell Grant Fraud Results in 290 Settlement Agreements
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
August 11, 1999
Contact Person::
Traci Wilnerd (316) 269-6481
Headquarters
1200 Epic Center
301 N. Main
Wichita, Kansas 67202
Investigation into Pell Grant Fraud Results in 290 Settlement Agreements -1.6 Million in Penalties and Restitution
WICHITA - United States Attorney Jackie N. Williams announced today that a two year investigation into Pell Grant Fraud has uncovered over 300 cases in which students and their parents provided false information in order to obtain Pell Grants. Williams said that the false information ranged from the substantial understatement of the parents' income to students falsely claiming to be orphans or wards of the court. Orphans or wards of the court are not required to disclose their parent's income on Pell Grant applications.
Williams said that the civil investigation grew out of the criminal case of Ernest Dale Bleam, 62, Mulvane, Kansas, who was sentenced on Wednesday, July 15, 1998, to twenty-one months in federal prison, without parole, and ordered to pay a $5,000 fine for aiding students and parents in obtaining Pell Grants, most in Kansas and Missouri, based on false information. Bleam entered a guilty plea on April 13, 1998, to fraud against the Department of Education.
Williams further stated that the cases have resulted, to date, in 290 settlement agreements with the students and their parents to settle allegations of violations of False Claims Act and payment of over $1.6 million In restitution for grant repayment ($975,000) and penalties ($638,000).
The Pell Grant Program provides direct grants to help financially disadvantaged students obtain post secondary education. Grant amounts range from $400 to $3,125 for each academic year. Schools pay Pell Grants directly to the students or credit their school accounts from funding received from the Department of Education. Nationally, Congress allocates over $7 billion in Pell Grants each year to help over 3 million students attend school. In Kansas, the Pell Grant Program awards over $117 million each year to help over 50,000 students attend Kansas schools.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov